                                                                                                                    June 10, 2014

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

The Honorable Michael D. Lumpkin
Under Secretary of Defense for Policy (Acting)

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan and
 Commander, International Security Assistance Force

Mr. William Hammink
USAID Mission Director for Afghanistan


Dear Gentlemen:

I am writing to inquire about the U.S. government’s plans to provide electric power in Kandahar after
December 2014.

As you know, DOD’s Kandahar “Bridging Solution” provides fuel for two 10-megawatt diesel
generators in Kandahar as part of a combined counter-insurgency and development strategy.
Because fuel for diesel generators is very expensive1, DOD always intended the program to serve as
a temporary solution until Kandahar could obtain power from more sustainable sources, primarily
from the additional turbine being installed at the Kajaki Dam (Kajaki Dam Unit 2 Project) and
through efforts to more effectively connect Kandahar to the country’s two major electric grids — the
Northeast Power System (NEPS) and the Southeast Power System (SEPS).

During my recent trip to Afghanistan, I met with a group of DOD, DOS, and USAID officials on this
subject. A senior military official told me that DOD intends to stop purchasing fuel for the Kandahar
diesel generators by the end of 2014. This loss in power could be offset by the completion of the
third turbine at the Kajaki Dam. Yet, based on information provided to my office, Kandahar will not
receive power from the Kajaki Dam Unit 2 Project2 until its projected completion in late 2015. As
noted in SIGAR’s recent communication to USAID, the projected completion date for the Kajaki Dam
Unit 2 Project has already slipped one year. While SIGAR and USAID disagree about the economic
effect of the cost increases involved, both parties agree that additional costs for that project have
occurred. The loss of power could also be offset by the NEPS/SEPS power grid. However, this
project will not be completed until sometime in 2017 or 2018.3



1   DOD reports $100M in FY 13 funds dedicated to fuel, operations, and maintenance for power plants in Kandahar City.
2   The Kajaki Dam is located on the Helmond River in Helmond Province.
3U.S. Agency for International Development, Power Transmission Expansion & Connectivity (PTEC) Update, Power Point presentation,
November 25, 2013, Provided to SIGAR.
In that same meeting, Da Afghanistan Breshna Sherkat (DABS) officials relayed to me that if DOD
stops providing fuel for the Kandahar diesel generators at the close of this year, DABS may not have
the financial resources to purchase the fuel needed to keep the generators running.4 Furthermore,
these officials cautioned, it appears unlikely that DABS will obtain sufficient alternative energy
sources to offset that lost power. Given the time it will take to complete the Kajaki Dam Unit 2
Project and connect NEPS and SEPS, it seems possible that thousands of homes and businesses in
Kandahar will no longer have access to electricity beginning in early 2015.

I was further told that DOS, DOD, USAID, and DABS officials working in Kandahar are well aware of
this potential problem. Their briefing to me included a Power Point presentation5 of a draft proposal
by DABS and USAID officials to develop a “bridging solution to the bridging solution.” These officials
are trying to create an Afghan-led, hybrid program that would provide Kandahar with power from a
combination of the existing diesel generators, a new solar power plant, and a hydro-electric turbine
to be installed at the nearby Dahla Dam.

However, legitimate concerns remain about the ability of the U.S. and Afghan governments to jointly
develop, undertake, and complete two new and ambitious infrastructure projects before the end of
the year. Security risks associated with starting new high-profile infrastructure projects pose a
particular concern. In addition, I fear the initial cost estimates for the two projects may be overly
optimistic. For example, the draft cost estimate for the Dahla Dam turbine project6 is only $10
million, while the cost of the Kajaki Dam Unit 2 Project, which has already received substantial
assistance, is at least $75 million.

I am concerned that if the relatively tight timelines and cost estimates for a new “bridging solution to
the bridging solution” are inaccurate, and electrical service to the Kandahar area is compromised,
the U.S. government may lose some of the hard-earned counter-insurgency and economic
development gains made over the last few years.

More recently, my office was told by a Pentagon official that DOD plans to continue purchasing fuel
for the generators in Kandahar until September, 2015, but that the amount of fuel bought would be
“tapered” or reduced in some unspecified way over the months to come. While the total costs and
amounts of fuel involved are unclear, this action may serve to mitigate the gaps identified in some
small measure, or may provide some limited additional time for other sources of energy to come on-
line. Nevertheless, I have a number of questions concerning how these uncertainties may be
addressed.




4DABS is the national power utility company of Afghanistan, operating and managing domestic power generation as well as power
importation, transmission, and distribution.
5U.S. Agency for International Development, Potential for Hybrid Solar Photovoltaic/Diesel System to Provide Reliable and Affordable
Electricity to Business Parks, Power Point presentation, March 13, 2014, Provided to SIGAR. This document is included as an enclosure.
6   Dahla Dam is located in Kandahar Province on the Arghandab River.




SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution                                                                       Page 2
To help SIGAR understand how the U.S. government intends to help provide electrical power to
Kandahar, I’m requesting answers to the following questions:

    1. Will DOD fund fuel for Kandahar's diesel generators after 2014? If not, what contingencies
       are in place to ensure power is maintained? Is there DOD-USAID coordination on this? If so,
       please explain.
    2. If DOD intends to continue funding fuel for Kandahar’s diesel generators after 2014, please
       provide a detailed description of those plans and include the amount (in terms of gallons and
       dollars by month) for the proposed duration of the program.
    3. When do DOD and USAID expect to complete their joint effort on the NEPS and SEPS? When
       completed, is it expected that NEPS and SEPS will provide enough power to Kandahar to
       offset the power lost, if the two diesel generators supported by the U.S. military are shut
       down?
    4. When does USAID expect the new turbine at Kajaki Dam to become operational? If and when
       it becomes operational, will it provide enough power to Kandahar to offset the power lost if
       the two diesel generators supported by the U.S. military are shut down? Are there
       contingency plans to make improvements or repairs to the two existing turbines at Kajaki
       dam once the Kajaki Dam Unit 2 Project is complete?
    5. How will DABS be able to financially sustain the two Kandahar diesel generators when U.S.
       government fuel subsidies end?
    6. How does the U.S. government intend to help the Afghan government develop a sustainable
       source of electricity for the period between the end of the Kandahar Bridging Solution and
       when the new turbine at Kajaki Dam comes online (at the earliest, in late 2015)? Please
       provide copies of any studies or assessments for possible bridging solutions, including those
       related to the solar and Dahla Dam power plants.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended. Please provide the requested information
within thirty (30) days of your receipt of this letter to my Director of Special Projects, Mr. Jack
Mitchell, at                 or at                                    . Please do not hesitate to contact
him should you have any questions.

Thank you for your cooperation. I look forward to your response and working with you in support of
our nation’s critical mission in Afghanistan.


                                                                  Sincerely,




                                                                  John F. Sopko
                                                                  Special Inspector General
                                                                   for Afghanistan Reconstruction


Enclosure: I – USAID Draft Infrastructure Working Group Meeting Slides



SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution                                            Page 3
ENCLOSURE I: USAID DRAFT INFRASTRUCTURE WORKING GROUP
MEETING SLIDES




SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 4
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 5
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 6
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 7
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 8
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 9
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 10
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 11
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 12
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 13
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 14
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 15
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 16
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 17
SIGAR-14-68-SP Inquiry Letter: Kandahar Bridging Solution   Page 18
